SEi

^

nj l

NO.

/

N

r'

j

IN THE
UNITED STATES SUPREME COURTS
" In re [MAURICE MORLEE JOHNSON["
PETITIONER

v.s

Si? 2 3 :
ot^.ce

or.■

THE UNITED STATES CONGRESS
THE UNITED STATES OF AMERICA
THE STATES OF OKLAHOMA
RESPONDANT

PETITION WRIT HABEAS CORPUS
28.U.S.C. §§ 2241, 2242
IN THE UNITED STATES
SUPREME COURT

Now come the petitioner Maurice Morlee Johnson-bey, "IN propria
persona"

sui Juris" To the highest court of The United STATES

SUPREME- COURT. On the grounds of IMPROPER STATUS,[NATIONALITY] For
The Titles (NEGRO, BLACK,COLORED,AND ECT). These UNLAWFUL label
Was Attach To the petitioner Nationality with out consent. Here
It must Be Remember That only the proper STATUS can be heard In
The Proper Jurisdiction. Being Label Black Is Not A district or
A superior case ISSUE). Infact The Black Label would Leave all
Courts In Want of jurisdiction Except: THE UNITED STATES SUPREME
COURT, A special committee and/or THE UNITED NATION INTERNATIONAL
COURT OF JUSTICE (THE WORLD COURT).

QUESTIONS
I.

What branch of law Authorized the STATES to apply Abolished

Slaves labels (Negro, Black , Colored or African-American), To
any AFRICAN descent after 1865 ? This Reinstates Such person as
Chattel (property) and reopen The Institution of slavery under
Colorable Constitutional Amendment !
II.

Are Blacks "Slaves or other wise 'persons" as used In the 14

Amendment and How can They Be Made 1st class Citizens without
Their Inalienable FREE NATIONAL DESCENDANT NAME of their
FOREFATHER ?
Ill.

Could the 14 Amendment unilaterally Impose.citizenship on

persons of African Descent without Their consent ?
IV.

As For Blacks with Criminal Records What Crimes can Property

Committ Which Its Owner

The Slaves Master is not Accountible

for In a court of LAW.
V.

If one can produce a black "SLAVE" The same Must Also Produce

The black Slave Owner.

(lfr

TABLE OF CONTENTS

QUESTION

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS

7

STATEMENT OF THE CASE

11

REASONS FOR GRANTING THE WRIT

17

CONCLUSION

21

SOUGHT RELIEF

23

INDEX TO APPENDICES

APPENDIX -A

JUDICIAL NOTICE

APPENDIX .B

LEGAL NOTICE

APPENDIX CC

AVERNMENT

APPENDIX .D

HISTORICAL FACT AND CITED LAWS

APPENDIX .E

MOORISH AMERICAN NATIONAL

OF JURISDICTION

DECLARATION

(2)

Credintial

r
i

JURISDICTION

(3)

PILLAIR OF JUSTICES

The Jurisprudence of all U.S. Court systems Is Foundated
Upon Two Master Words: STATUS AND JURISDICTION Without these Two
Legal principles, There can not be a Lawful Proceeding. To have
any trial without true Application OF these NECESSARY CONDICTION
will make the law "ex post facto to the U.S. Constitution and
leave any court in Want Of JURISDICTION. These are the two Giant
Pillair of Justice!
STATUS
Status:
Is simply "proper and Precise Identification". One legal
position or rank in Relation To other Lawful or national prestige •
Is neither TEMPORARY IN ITS NATURE,nor TERMINABLE at the
mere will of The Parties.
Is: all that constitutes the subject into a correct Identitly
JURISDICTION
JURISDICTION IS: The power of Duly Constituted courts with control
over the parties, and subject, matter

before it. It defines the

power of court to inquire into facts, apply the law, make
decision

and declare Judgement. Jurisdiction exsist when court

has cognizance of class of case involed and the "proper parties"
are present (correctly Identified [status] and point to be heard
and decided is within power of the court!

4

Jurisdiction Is A term, Which Embraces every kind of Judicial action. It
defines The power of courts to Inquire Into Facts, Appl’y the LAWS,MAKE
decisions, and declare Judgment, Jurisdiction Is Always In want of
proper Parties to be present.
THE SCOPE: Add Extent of jurisdiction of Federal Court's
Are Governed by .28 U.S.C.A. 1251 ET seq. The federal court has The
unquestionable Authority to Entertain Suit To Redress A Person Deprived
Under color of state law, OF Constitutional Right's

Now To The "

QUESTION OF STATE'S OWNERSHIP OF SLAVES,Via

Black birth certificate, Black licenses, arrest record's, and all other
Official States level: THE STATES ARE ONLY LIMITED EMPOWERD by
Congressional legislation and Congress must answer To The Constitution
Which is over seen by The U,S SUPREME COURT.
U.S SUPREME COURT RULING,
HAGANS V. LAVINE
Jurisdiction cannot be sustained by a lower court or entertain and
decide any claim of conflict between federal and state law's
This ruling also states as Example that the conflict question is It
self A "CONSTITUTIONAL MATTER"'within the meaning of

1343 (3),

"proper jurisdiction" The claim of the 13 Amendment to ABOLISH all
entities of Slavery, Slave names, Slave master,eg. NEGRO,BLACK,COLORED.
Now Become Ex Post Facto In The 14th Amendment Which Then Declare the.
same negro,black and colored slaves as citizen" disguised under the
word "Person" And made SUBJECT TO THE JURISDICTION.This claim give
rise to a legal conflict Between

Slavery and freedom and is It self

then a CONSTITUTIONAL ISSUE!!!

5

HAGANS V. LAVINE
Futher establish that a "Substantial" question was neccessary to support
Jurisdiction. HOW THE WORD "Black" can find no formal place within
The "NATIONALITY" of the HUMAN Family and still can be Made Sill citizen"
Of ANY FREE

" RECOGNIZED".'..

NATIONAL AND CONSTITUTIONAL GOVERNMENT?

This Is A substantial sound and Merited question and Framer of 13th,
14th,and the 15th amendments, "supreme

court Justices Which decided

the DRED SCOTT CASE OF 1857 AND THE PHANTOM SUPREME courts case that
overturned that Decision only can answer It legally Although Historically
No such overruling Precedence was ever Recorded In U.S LAWS.

Here It Must be remember only The "Proper status" Can be
heard In the "Proper Jurisdiction". Being "Black" Is Not A District
Or superior Case Issue). Infact The "BLACK LABEL" would leave any court
in WANTED JURISDICTION; Except The U.S. SUPREME COURT,A special
CONGRESSIONAL COMMITTEE AND, OR THE UNITED NATION’S INTERNATIONAL
COURT OF JUSTICES (THE WORLD COURT) IN THE HAGUE NETHERLAND'S.

ALTHOUGH the court's can prove they do "INFACT" have JURISDICTION over
"Negro, Black,colored" as Property." .BUT NOT AS A NATIONALITY.NETHER
CAN THE COURT PROVE TO HAVE JURISDICTION OVER ANY NATIONALITY
WHICH Is NOT SUBJECT TO IT'S JURISDICTION EXCEPT BY NATURALIZATION
THROUGH FREE NAME AND CONSTITUTION OR TREATY ARGREEMENT! The court
of the U.S have, what is Legally Known As "ASSUMABLE Jurisdiction"
Over NEGRO,BLACK,COLORED,. Becaused the U.S court are the proud
producers and title holder of these estranged people.

6

s

CONSTITUTION AND STATUTORY PROVISIONS

7

U.s. CONSTITUTION
AMENDMENT I ARTICLE 1§ 2..

ARTICLE

1 § 9 (CL.3)

AMENDMENT XIV
AMENDMENT V.
AMENDMENTIX.

8

SUPREME COURT DECISION

The Right to Travel: State V. ARmstead

60 s. 778, 779, and 781.

The state Does not Claim to Control one's conduct to other, leaving
one sole Judge as to all that affect one self.
Miranda v. Arizona 384. U.S. 436,125.

Cliam and.ExErose of constitution cannot .be Converted Into a crime
MiLLer v. Kansas 230 F.2nd. 486,4891.

Absence of proof of Jurisdiction over a person and subject matter
the Case must be dismissed Louisville v. Motley 211 u.s. 149 CT
42.

Hagans v. Lavine

Boswell v. otis (9 How) 336, 348.to wit:

Dred scott v. Sandford [60 U.S. (19 How) 393, 15 L.Ed. 691] 1857
Ex parte shanid,d.c.s.c. 205 F.813; United states vs.corDozian
D.c. Cal,271 F.23.
9

U.S. vs. Javier 22 F.2nd 879,880,57 App,D.c.303

KHaraiti Ram Samras V. United States C.C.A CaL.,125 F.2nd 879,881,

Pennoyer v.Meff, 95 U.S 714, 24, Led. 565)

Elion Gonzales of cuba. vs The Law and Citizen of United states

10

STATEMENT OF THE CASE

11

UNLAWFUL STATUS [NATIONALITY]
(NEGRO,BLACK,COLORED,AFRICAN-AMERICAN)

The UNITED STATES Supreme Court ruled that descendents of Africans who
were negro of African race, Who were imported into The UNITED STATES and
sold as slaves were not included nor intended to be included under the
word " citizen" in the constitution

whether emancipated or not

and

remained without rights or privileges except such as those which the
government might grant them.
Dred Scott v. Sandford

Dred scott v. sandford [60 U.S. (19 HOW.) 393,15 L .'Ed. 691] decision
1857
Chief Justices:Roger B Tancey
"The question is simply this: Can a negro, Whose ancestors were Imported
into this country and sold as slaves ) ' become a member of the Political
community formed and Brought into existence by constitution of THE
UNITED STATES

and as such become entitled to rights, and privileges

immunities guarantied by that Instrument to the citizen ")

and

It will be

observed, that the plea applies to that class of persons only whose
ancestors were negro of the africa race. "futher along justice Tancey
u
said that these classes of persons Were not - constituted member of
This soverignty" and that "they are not included, and were not intended
to be included in the word citizens in the constitution"
JUSTICE:Daniel s comments from his concurring opinion.
Now the following are truths which a knowledge of the history of the world
and particulary of own country compels us to know'---- that the African

negro

race never have been acknowledge as belonging to the family of Nations;
that as amongst them there never has Been known or recognized by the
Inhabitants of other countries any thing partaking of the character
of nationality, civil or political policy; that this race has been by
12

Some will arguee that the Dred scott decision was replace by 14th
amendment and or amendment XIV specifically eliminated the 3-fiths
formula. However no constitution law have ever been handed down,
by congress to teach back the 2/5 that necessary to make the free
slaves into a whole person. One must be made consciously "Whole"
before he can become a citizen- "have right" ( not prilivage)
of citizens and be subject to the jurisdiction of a citizen.
THE TRUE 5/5 COMPONTS OF A NATURAL PERSON
1.

Spirit: The indestructable Essence of God in man.

2.

Soul: Action of the mind, power, ( thinking,reasoning,

willing,understanding).
3.

Body: flesh , human,vehicle, made of the earth; often

Indigenous to land of birth.
4.

Nationality: The descendant birth Attachment through an

Especial nation or Tribes: free national name, linege identity.
5.

Creed1:' religious path of god consciousness established through

Forefathers, vine and fig tree.

The opening clause of the 14 amendment ;state all person born. , this
clause was itiaia to symbolize the nationalization of former slaves
Into citizen. Yet without the free national descendant name of
Their forefathers and their own true nationality. How can this
be possble.
By divine and natuarl laws they are still slaves and subject to
the jurisdiction thereof (property now owned by The U.S, goverment)
In short this Clause gave the U.S.A. assumed ownership (again.
If the word "person" use in the 14th amendment Isnt inrefference
to the ex-slaves Then, there was no need for the 14th amendment at
that time.
13

all the nations of europe regarded as subjects of capture or purchase
As subject of commerce

or traffic: and that the introduction of that

member of a civil
race into every section of this country was not as
PROPERTY IN THE STRICTEST SENSE OF THE
or political society, but as
TERM" !
Moreover, even though it does not expressly use the word negro, the
three fifths provision in ARTICLE 1. § 2. of the constitution is another
example of how the chattel definition of negro slaves was perceived
at that time. Over time, the more the term negro was used, the more
it was accepted particulary by the slave holder.(see: Free White Person)
"free white persons

referred to in the

Naturalization act, as amended by ACT JULY 14, 1870 has meaning
na turally given to it when first used in STATUTE 103 c.3, meaning all
persons belonging to the EUROPEAN races then commonly counted as white,
or their descendants in other countries to which they may have emigrated \
"EX parte shahid

D.C.S.C.,205 F. 812,813; UNITED STATES vs CORDOZIAN

D.C. CAL., 271 F. 23. Nor A native-born FILIPINO. U.S vs Javier, 22 F.
2nd 879, 880, 57 app.

D.C. 303. .

OR " KHARAITI RAM Samras V.UNITED

STATES, C.C.A. CAL., 125 F. 2nd 879 881.

Yet The: Defintion of person is largly unnotice due to it
obscured defintion. In Essence this state of subsistence is
The colorable legalized enslavement of a nation of people
held here In the UNITED STATE OF AMERICA.
The nationality of the title (Negro,Black,Colored) is
One who is unclassified as human or a real person: Even after
the so-call dissolution of the 3/5 clause;
14

........

..

All people who are free national,are born with the Inalienable
right to Inherent NATIONALITY of Their "forefather" e.g.
CHINESE,GERMAN,EGYPTIAN OR MOORISH, Any act lawful or disguised
which deprives A person or people of This BIRTHRIGHT given by
the creator is an act of "DENATIONALIZATION" and "GENOCIDE"
These

are Firstdegree criminal

violation for any goverment to

Enact upon A people Under colorable admendment to it constitutional
law's Hence: Formal charges (see: universal Declaration Of Human
Right. Artical 15 . § j.l. and 2.
Although some people of the courts would try to arguee that The
14th amendment over-rode The Dred Scott case ruling,and made
"Negro (African American), Black And color, Citizen of The U.S"
Therefor The NBC (Negro, Black , Color) are UNITED STATES CITIZEN'S
By birth, In the STATES of VA,MD,NC,ECT. and thus subject to the
Jurisdiction of The federal courts"
However This confirmation is in dire Violation of the
U.S CONSTITUTION ARTICL l,§-9 (cl.3) and 10 which
"Ex post facto" and the court's that enforced These Law's are
"criminally Liable"
Facts: All slave Names, slave master and slaves were
legally Abolished In 1865. The Slave Identifying mark of Negro,
Black or color and ect., Which were Names given to Those enslaved,
were also voided with the Institution because: These names were
applied to captured and imported AFRICAN;!; MOOR’s "Demurable"
and an act

of "Denationalization" Which place them out of their

"proper person"
i

■

To be Treated Unfairly anU unjustly.
,■

.

15

4 '

According to Federal rule Title 18,§ 241-242 "NO ONE
HAS THE RIGHT, ESPECIALLY UNDER CADGES AND COURT' S,ECT, TO
DENATIONALIZE, DEPRIVE ANY RIGHT, PRIVILEGES OR IMMUNITIES BY REASON
OF COLOR,RACE.
Therefore The courts are Hereby Demanded To Prove That Negro,Black,
colored is A lawful status. With a descendant nature within The
scope Of Nationality or National Origin Of Forefather, Equal To
All other People ; Also Further.Prove This Status Exsisted
before The Establishment of the constinental congress and after
It's congressional death In 1865.
In Addiction,Negro, Black, colored Is Declared
"property" and no property can testify against it's self in any
court of LAW, [emphise added] ONLY IT"S OWNER MUST APPEAR.
In addiction, COURT'S Enforcing mere statutes (statutes?)
Do not act judicially but merely ministerially: Thus, Having no
judicial Immunity,and unlike courts of laws,Do not Obtain
jurisdiction by service of process

nor even arrest and compelled

"appearance"
(see: Boswell v. Otis, 9 how. 336,348: to wit)
THEREFORE: who own the ' NEGRO, BLACK, AND COLORED that was
declared out in 1865^ 'WiiLh thd ilhd!tltiiMdh)MfS jSLAVERY?" It Is
The appearance of the Rightful Owner of property, Not The Property
required to answer In a court of law

•

16

.

REASONS FOR GRANTING THE WRIT

17

A black,Political,Hostage,iIs a state of encompassment. It
is the state of unnatural existence that Envolopes so-call "Black,
colored,negro, and ect. Which is see by the masses. Yet is largely
unnoticed Due to its Obscured definition.In Essence, This state
of subsistence is the colorable legalized enslavement of a nation
of people held here in the United States Of America. To Revael
this Phenomenon

It is Necessary to Dissect the words "Black"

"Political" "hostage".
"BLACK" Is only a word, Not a color,which according to Science
Mean Death, Void Of Light, absent of life,Negatives.
POLITICAL

The practiced Influences of a government, anything

pretaining or relating to the policy or administration of . ..
government state or National. The exercise of the Function vested
In those Charge with the Conduct of government to control It's
public policy. The Exercise of government power.

HOSTAGE

Any person(s), Family, Tribes, National or people,

Once Free Now Captured Usually Kidnappend from alien Origin, Held
Against his/her will, With their freedom and/or life or service
to stand as ransom or security.

The Petitioner Life has Been AN Illusion fill with depression
and mental torment. And Now that He And His Children have finally
found their self it is only right that they received redress .
18

It Is crucial to know that, "by Design" Being Born an American
"Negro, Black, Colored. ectV'Is not a Birthright!! There./Is No
Heritage, There Is Nothing To attain, There Is No Saving Power In
any Slave Names. "Black can only be product in The United States Of
America; Further More are only Certified at birth In TheU.S.A.,
Because By Law. America Has Exclusive Rights To Own Nationalized
(chattel e.g.) [Negro,Black,Colored] These Title Can Not Be a
Product Of Property or Citizen Of Any Other Government In any
Other Country,especially those populated by people of Hue,
"Black,Loses Its United States Value Within Its Interior and They
Become "FREE NATIONAL".
The Emancipation,Proclaimation Did Not Free The African Slave
The 13th Amendment did Abolished The Institution of Slavery. How
ever The 14 Amendment Re-Legalized

Slavery e.g. Upon The Duly

Convicted. The U.S Court Gain Assumable Jurisdictional [owner-ship]
Of the "Negro.Black,colored.ect." Under A colorable citizenry.
Wiih Granted Privileges and Hallucinatory Protections. The 15
Amendment Granted The "Negro , Black

Colored,ect" Temporary

Privileges to vote Although In 1868 The Southern Population
of Negro,Black and Colored was 96% Illiterate and Not Proclaimed
as a Nation or as a People. The Ex-Slave would Never Qualify as
a First Class Citizen.With The Labels and Marks Those Enstrange
people are De-tached From The Human Family,and have No Nationality
Or National Descendant Rights That any True Citizen Is Bound To
Respect.
19

The state Seals are stamped upon every birth certificate
These States Document Have Been Authorized by The U.S. congress
Through Its Signature Signed As The Last Article On each of the
Reconstruction amendment Particulary the 14 amendment,Other Document
Rang from Baptismal Certificate, Driver Licenses, Medical and
dental records, Arrest records, Academic Records,Social security
Authorization, Marriage and Operative Licenses, and ect.ect.ect.
These are link to "Denationalization" and Colorable Citizenry!
The Only other courts although Several private Attorney Have
Been InTerested In my Claim They Are Not allow to represent me
for I am Moorish american national, By Birthright and I can only
be represented by Those Of My same nationality and with the
agrred treatiy of friendship and peace between Morocco and
The United states. Although the Supreme Courts doese have The
Power to Correct This Horrible act that was force upon me and
my children.[TheBLOOD CRIME] is difficult for any person to
endure.
We seek to be redress and reparation incentive from the great­
est country on this earth. If This Country Will Not Correct a
wrong committed against me and my family. Then The Future of this
World is truly Uncertain.

20

CONCLUSION

21

IN CONCLUSION

1.

All U..S courts are bound by law to [first] correctly Identify

the subject's,Be it the defendant or the plantiffs (status) Second,
they must and can only be heard (Adjudicated) by a court with the
proper Jurisdiction to deal with the Level of the Identify.
Therefore A Natural Person would leave all criminal courts in want
of Jurisdiction to issue an "IN Propria Personam Judgement"!
Any Court which lack personal "Jurisdiction" Is also a
court without power to Issue an "IN personam Judgement" See
Pennoyer v. Meff, 95 U.S. 714

2.

24,led.565.

The United states Officially lost Its Sovereignty in (1871)

"Returning to Its Original Corporate Status as when it's was
British colonies"
Therefore All Crimes committed since ,Are Commercial
Crimes and can not be apart of any Legal Proceeding,Governing
Living Flesh and blood,[Not Corporate fiction]. True
Constitutional Government's Do not have Nor honor Corporate
courts. Because Corporations are mere Property Themselves.
Corporate court can not perside over a Natural person Judiciously.
Which would make any Living [natural person] A living

"BLack"

"Political" "Hostage". To fully Understand This Phenomenon Its
Necessary to Dissect the Words Meaning.

22

r

SOUGHT RELIEF

23

SOUGHT RELIEF

THE petitioner seek to be redress ,i..The federal courts has the power
to due so as stated Herein.
1.

For the correct Nationality to be publish publicly.* threw aJD. O,. J

and The Certificate of birth be Dissovle. For The Petitioner is
Moorish American National By Birthright.

2.

To be compensated in the amount of. $5,000,000.

3.

For the Petitioner children to be compensated

$1,000,000,

each .
The petitioner Also Requst For The Content of this Motion to be
seal From Public eyes and only be granted for reveal by D.o.d
Or The.Petitioner Children or Family.

24

INDEX TO APPENDIX

JUDICIAL NOTICE AND PROCLAMATION
TO ALL ELECTED UNITED STATES REPUBLIC OFFICIALS AND PUBLIC
SERVANT OF FEDERAL,STATE,CITY AND MUNICIPAL GOVERNMENTS PERSONAL
AND CORPORATE ENTITIES: CONCERNING THE CONSTITUTION AND ALL
STATUTORY AND CIVIL LAW CODES OF THE LAND, ect...KNOW ALL MEN BY
THESE PRESENT:
UPON my inherited Nobility and upon my private Aboriginal/
Indigenous, Proper person status and commercial liabilty.
I, Prince Maurice AL Jesh morlee Johnson-bey being duly Affirmed
under consanguine unity; pledge my National, Political,and
spiritual Allegiance to my Moabite Moorish Nation - being the
archaic Aboriginals/Indigenous of amexem (the Americas): standing
squarely affirmed upon my oath to the "Five points of Light-love,
Truth, Peace, Freedom and Justice; do squarely affirm to tell the
truth the whole truth,and nothing but the truth:and having
. knowledge and firmly-established belief upon the historical lawful,
and adjudicated facts continued herein, being competent.
(IN MY OWN PROPER PERSON) To attest to this Affidavit upon
Which I place my signature, Whereas, I state, Proclaim and
declare The Following to be true,correct,certain,complete,not
misleading, supreme and not Intended to be presented for any
Misrepresented 'colored or Improper use or purpose to wit:

THAT I,PRINCE Maurice AL JESH morlee Johnson-Bey Am a Noble
of the A1 Moroccan Empire (North American) In propria persona,my
own proper self); Being Moorish American- A Descendant of The

Ancient Moabit,Moors by birthright Freehold,primogeniture and
Inheritance; Being Aboriginal and Indigenous To land, Is
(Amexem/America) Territorium of my Ancient Moabite,Moorish
Foremother,and forefather to wit;
The A1 moroccan (American) continents are the Land of the
Moors; Being North AMERICA , SOUTH AMERICA,CENTRIAL AMERICA;
INCLUDING THE ADJOINTING ISLAND AMERICAN/AMERU, AL MOROC) I have
acknowledge claims and possess by said Inheritance and promgentiture
the Free Hold Status thereto; All Unalienable and Substantive
right to be to enjoy and to act distint in my Aboriginal custom
and culture; and determing my own Political, social and economic
status of state. Turning my heart and mind back to my Ancient
Mothers and fathers-Moors/Muurs, By divine and Natural right.
Being Moorish american,Who Have Possess the Internationally
recognized right to determine our own status Moors/Moorish American
Muurs have proclaim and possess The Unalienable, Substantive right
and birthright Inheritance to our A1 Moroccan Names and Nationality
by Nature's laws Divine law, primogeniture, and by the Recognized
laws of the Nations Of the earth (International) Being the true
Ancient Aboriginal/Indigenes of the land (AMERICA)-North,Being the
heart-Land of the Moroccan Empire, Moors/Muurs are the

DE jure

FreeHolders by Birthright, Inheritance and Primogeniture Status:
and have,Claim and possess the secured rights to Travel upon the
public roadways,byways and Highways of our Continental "
UNITED STATES (THE ORGANIC LAND) ABSENT OF FOREIGN

Colored' or

Imposed excise taxation constructs Invented,by the racketeering
States Legislators, to abridge and steal Right Belonging to The

Natural peoples, These Substantive rights are supported by,and
asserted by,Royal Law; Moorish Law; Moslem/Muslim Law; The Law of
the great peace; The Laws of Nature; Divine Law; Nature God; The
Law of nations; The Free Moorish Great seal Zodiac Constitution;
and Affirmed by Articles IV and VI of the Constitution Covenant of'
111b- 1781 A.D= 1201 M.C., as lawfully adopted for The,UnitedStates Republic, establishing its Republican Form Of Government,
said Constitution established the peoples 'Supreme Law of the Land'
to secure the rights of The people

and to Keep Government bound

and in check by Official Oath and by Official Bond. Down from the
Ancient.: Ones, Our Primogenitors, comes the Supreme Law of the
land!
EGYT, The Capital Empire Of the Dominion of Africa. Inhab­
itants of- Africa are the Descendants of the Ancient Canaanites
from the land of Canaan. The Moabites From The Land Of Moab Who
received permission from the Pharaohs of egypt to settle and
inhabit

NORTH-WEST AFrica; They were the founders and are the

true1 possess of the Present Moroccan Empire. With their
Canaanite, Hittie and Amorite Brethren who sojourned from the
■?;

land of canaan seeking new homes. Their'Dominion and Inhabitation
extended from NORTH-EAST AND SOUTH-WEST Africa.across the great
Atlantis even unto the present NORTH,SOUTH AND CENTRAL AMERICA
and also MEXICO and the ATLANTIS ISLANDS; before the great
earthquake, Which caused the Atlantic Ocean.

The:..present Union states Municipal and civil Laws codes of
land-are an 'incorporated unit of self-government established, by
the political powers of the General Assembly' Of each state of the
Union, and initiated at PHILADELPHIA/ PENNSYLVANIA, NORTH AMERICA,
in the year Eighteen fiftyfour (1854). It governs ."..Only' the right
and conduct of "WHITE PEOPLE',CHRISTIANS AND JEWS,OF Eighteen
sixty-three (1863), Union states right Republic,under the Magna Charta
(Charter), the Knights of Columbus code,and the KU KLUX KLAN Oath.
Forever Said. Union states rights Republic denies citizenship
in The United States republic (U.S.A) to the descendants of the
Moorish Nation in the western Hemisphere, erroneously referred
to and 'branded' and mislabeled as Negroes,Black, Colored and
Africa Americans,ect.

Resultantly, the true Indigene Nobles of A1 moroccan Empire
(FREE MOORS), bearers of the name/Titles, ALi,El,Bey,Dey, and A1
are excluded from the Union states rights Republic (U.S.A.)
Jurisdiction. The True Nobles Of the A1 Moroccan Empire are
Sovereign,private and self-Govern,. by Right Law' Principles and
customs; and Only Obligated to the Free Moorish Zodiac Constitution •
circle 7- Archaically established by our Ancient Fore-mothers, ..
and Fore-fathers. Such extended Allegiance and Obligation includes
'the Great seal and the High principles and Moor-al standards
embodied in the Moorish National Flag (standard) _LOVE,TRUTH,
PEACE,FREEDOM,ANDJUSTICES. The true A1 moroccan Noble Indigenes
of the land maintain a Constitutional and lawfulLNON-OBLIGATORY
tax

status

and position, relative to

FOREIGN ENTITY TAXATION

( Indigenes Not Taxed) and maintain a NON-OBLIGATORY respect for
the Union States Rights Republic (U.S.A) its members, its Laws;
its ordinances; its codes; it,.customs and its traditions, pursuant
to : THE FREE Moorish American Zodiac Constitution-articles IV and VI;
The Treaty of peace and Friendship Between The United States and
Morocco-Seventeen Eighty-seven (1787)- Superseded by the Treaty of
Eighteen Thirty-six (1836); Resolution 75:Journal Of the House Of
Representatives; UNITED STATES-April 17,1933 A.D-MOORISH society
of Philadelphia and the use of their Names; The United Nation "
declaration of the rights of the child" General Assembly Resolution
217 A (ill) of 10, December 1948 A.D; Executive Order 13107UNITED STATES Republic, North America- The Implementation of human
rights treaties; The National Constitution .for the Continental
United states, Article III,§2: Amendment V-Liberty clause;
Amendment IX-Reservation of the rights of the people; The United
States Department of Justice Moorish Credentials; Free Moorish
Zodiac Constitution,Truth A-l Classified; The United states copyright
Certificate Number AA222141 Clock of Destiny; The Moorish Nationality
and Identification card; Moorish Holy Temple Of Science of 1928.
FURTHERMORE, I assert My Full Birthrights-Soverignty and
Substantive rights and claim to Hereditaments-Being Sundry Free Moor
Muur and a (Natural Being pursuant to; moabite/Moorish Pedigree.
The Treaties of peace and friendship- 1787/1836; The sundry Free
Moors act of 1790; The 1781 Organic United States Constitution;
The Moorish Financiers act (Union states army;

Cl861el863)

The 1854 Roman Catholic Magna Charta; The Knights of
Columbus code; The KU KLUX KLAN OATH; The United Na;li,Q0 Charta;

Article 55(c); The Right of Indigenous people: Part I, Articles 1,2,3,4,
5; Part II Article 6 ; The :United States Supreme Court

Acts of States';

The Foreign Sovereign Immunities Act 28 U.S.C.1601; et Sequa.,
The Convention on International Road trffic -Day 19 September.1949,
The.World Court Decision, The Hague
1958

Netherlands - Day 21 January

A.D=1378 M.C. In Reference to the Natural people and

Substantive Rights, ect., The Following are Pertinent supreme
Court Decisions, (Stare Decisis to wit:
1. THE Right to travel; The right to mode of conveyance; The right
to

Locomotion are all absolute rights and, police can not make

Void the exercise of right. STATE V.ARMSTEAD,60 S.778,779,AND 781;
2. UNDER THE UNITED STATES REPUBLIC'S CONSTITUTION system of

.

Government and upon the individuality and intelligence of citizen,
the state does not claim to control one's conduct to other, leaving
one the sole judge as to all that affects oneself. MUGLER V.
KANSAS 1213 U.S 623,659-60:
3. WHERE

Right secured by the Constitution are involved, there

can be no rule-making or legislation Which would abrogate them.
MIRANDA V. ARIZONA 384 U.S 436,125:
4. THE

Claim and exercse of Constitutional right cannot be converted

into a crimes

Miller v.Kansas 230 F2nd 486,489:

5.IF any tribunal (court find absence of proof of Jurisdiction
over a person and subject matter the case must be dismissed, Lc
Louisville v. Motley 211 US*

149, ct 42

That the Organic United States Republic Constitution ((derived
from Ancient Moabite/Moorish law) remain 'The supreme Law of the
Land', And all treaties made or Which shall be made under the
Authority of The United States Flag Of peace, pursuant to United
state Code, Title 4,Chapture 1. Any law that is Repugnant to the
Constitution, shall remain forever'Colorable' and is personnel
Employee or Contractor who Violate the rights of the People or
Citizens are subject to suit in their personal and/or official
capacity to wit:

* TITLE 18, PART 1, CHAPTERE13 § 241 OF UNITED STATES CODES OF LAW*
* TITLE 18, PART 1, CHAPTER 13;. §242 UNITED STATES CODES OF LAW *

THEREFORE,In preservation of' The Right of Indigenous people
and the preservation

of

the Rights of the people, in accord and

and defence of the Constitution for The United states Republic
of NORTH AMERICA and its Republican form of goverment-being the
'Supreme Law of the Lands; and primal to the contractual
liabilities oath - bound Obligations and Fiduciary Duties of
the

Officer of the court - Federal, State, City,and Municipal,

ect. I hereby, Demand

the enforcement of the De jure Laws of

The United states, and all Treaties Made Under the Authority of
The United States, in accord with Article VI of the Constitution;
The Bill of Rights; The Declaration of Rights of the Child; The
Rights Of Indigenous people; The Universal Declaration of Human
Rights; The United Nation Charter, Article 55(c); The United States
supreme 6ourt_Acts of State; The,Foreign Sovereign IMMUNITIES ACTS
28 U.S.C 1601, et sequa., The Convention on 'International Road

Traffic'- Day 19 September 1949

The World Court Decisions, THe

Hague, Netherlands - Day 21 January 1958 A.D=1378 M.C.;and
EXECUTIVE ORDER 13107. United States Republic, North America;
The Implementation of Human Rights Treaties; The National
Constitution for the Continenttal United States

Article III

§

2; Amendment V - Liberty Clause; Amendment IX ect. , ect. I,
hereby, Demand A Dismissal Of any and all Unconstitutional sanction,
claims or other Warrants Or Charges Made Or Issued

Which are

devoid of True Identity Personages; A denial of Due Process' of
Trial' by a jury of my own National Peers; Or absent of a
Verified and lawful Indictment

Sanctioned by an assembled Grand

Jury; and that I be availed all Lawful Constitutional Secured
safeguards, Establish by the Supreme Law; with document proper
Jurisdiction and Venue Confirmed and in Place.
WHWEREFORE ALL PARTIES OF INTEREST ARE AUTHORIZED BY THIS
WRIT: pursuant to National and International law,to honor all
.Ssubstantive Rights and constitutional Immunities reserved for
and to this Aboriginal/Indigenous Free and Sovereign Moor/Muur*
All Officials are to enlist all available and appropriate measure
to ensure, and assure that all my Substantive Rights and
Constitutional-secured Rights and Immunities are not Violated,
not breached,Nor abridged. The Sovereign Natural Being, named
herein, is not to be Arrested nor held for Detention'under
any 'Colorable' circumstances! You are to Notify the active
Ministers of the Aborigianal/Indigenous Moorish Nationals of
the territory (Organic Land). The Natural Person Named Herein
is N0N0BLIGAT0RY and thus Exempt from Customs,Tariffs,Taxation
'Owner in Fee' permit-deception constructs and from any other

hindrance or restriction of his or her freedoms,Allodial proper­
ties, compensations, Rights of travel,or freedom of movement on,
in, or within any member or Non-member states of the United States
Union, ect. The Moor/Muur,(Bearer of this Indigenous Peoples
Document) is to be treated with all due Respect and

Due Process

Rights under the Law. All available and appropriate Measure are
to be taken to prevent injustice,harm,False arrest,trumped up
charges,or attack on the Natural Being's Person,property,personalty
Conveyances,Freedoms, and/or Dignity.

EXPLICIT Reservation and use of

All Rights reserved Without

prejudice' U.C.C.1-207/308, U.C.C.1-103,in Noted to All Federal,
states city,and Municipal peace Officers; in harmony with states
statutes, and indicates the Reservation of my Rights. Whereby I
may Reserve my substantive Rights and Constitutional-secured rights
and Immunities to

NOT'be compelled to perform under any contracts

or Agreements That I_.Have not entered into Knowingly, Voluntarily
willing, or unintentionally. I do not accept any actual or
implied

Liabilities

of any 'unrevealed

associated with any 'COMPELLED BENEFITS

or deceptively-imposed commercial contract.

I, furthermore, do not sanction any 'Unconstitutional

rules

or policies, nor acts of Misprison committed by any U.S.
Government or States Officials,at any level, claimed by any of
them, in the name of United States Republic, Nor do I Assent to
any Implied Colorable policies made by alleged Representatives
as being sanctioned by the people and citizens. Consider any
Formerly assumed Constructs alleged to be related to me as being
Misrepresentations and thusly ’Cured'Forthwith. Let it be Known...:
/

'

* REPRESENT means to

Depict'to 'Portay',to Symbolize'and to'Stand

for'.Let it be known that the Union states Society 'Bar Association
Lawyers,Esquries and Attorney of European Colonial descent,and
Foreign coporation, cannot depict,portray or symbolize a Free Moor;
as they are not of the same Nation Jurisdiction, Customs,or
National peers; and cannot sit in judgment of any Free Moor
(Acts Of State). Europeans are not Indigenes to the land
(Americas)-Moors are Aboriginal! Union States Lawyer and attorneys
operate in Demo-political format,Which is contrary to Article IV.
§ (section) 4 of the constitution for The United States. Moors
operate in a Republican Form of Government, Conjoined with
Isonomi Principles-being in harmony with the constitution. Moors
respect Constitutional Principles. The Unconstitutional Tribunals
operating under the Union states Society conflicts with and is
repugnant to " Due Process" under Constitution principles and
functions primarily in 'colorable
just
land

procedures. Therefore,no Fair'

trial, or remedy is availed to the natural peoples of the
though such 'colorable' processes! These violation acts

constitute a conflicts of Interest

a conflict of law' and clearly

establishes the 'Federal Questions' Of Diversity of Citizenship';
a conflict of Identiy; and Nationality ect. Thus a clear
"Averment Of Jurisdiction" is also hereby Proclaimed and advanced.
Only Moors can

Present' and depict' themselves as being Moors/

A1 Moroccans,and Aboriginal/Indigenes of the Land! Thus only Moors
can PRESENT SELF!

I, PRINCE MAURICE AL JESH-morlee Johnson-bey A. real,live
flesh and blood,breathing, non-fictional,and Natural Being,born
of a natural Mother, do solemnly, sincerely, and squarely Affirm
that the foregoing facts contained in this Constructive and
Actual Judicial Notice and Proclamation, by affirmed affidavit
are true,to the best of my knowledge, Culture,Customs and beliefs;
Being actual, Correct, not miss leading,ect,;and being the truth

HIBU (10VE) HM}q (Truth) Salaam (peace) Hurryatun (Freedom) Adi
(Justice)

I > AM M/luriCC.

a/ - J

Aboriginal/Indigenous,Free Sovereign Moor-Natural Person of the
Land;

’In Propria Persona'

By Special appearance, before me on this day

of

2020 CCY=1430 M.C.,in honor the divine Being,Maurice A1 jesh-morlee
Johnson-bey, Affirms That He/she Is the Natural person/Divine Being
Herein Named,Existing in his/Her own proper person;Meeting the
law of evidence' as Required and defined in "Identiy'; affirmed
by Lawful, Substantive Rights by Birthright;and

respectively

acknowledged-being Lawfully qualified and competent to execute
this Document. I there Place This seal thereto:

MOORISH AMERICAN NATIONAL

Seal
I am /Ui,
Witness

otvi S/iio -?/?/£ i /

/

!
!t

i

For the public record.and Notification of Nationality Proclamation:
Name Correction Claim; Declaration, Af firmation

and Application

Herewith Published for record.ect:

1 Am J&tu&cr

A.M ■ ^ )&bn.{0/j-r/3e

Lionel

Witness:
Witness,:

A free and Natural Moorish American National 'In Propria Persona' j
' Sui Juris ,

Northwest Amexem/Northwest Africa/North America

Place of seal: =

Authorized by the Act of
July 7, 1355 to Administer Oaths
ICtSCrv?

Case Manager
USP Thomson, Illinois

C,‘l<jr3026

LEGAL NOTICE !
NAME DECLARATION,CORRECTION ,PROCLAMATION
AND PUBLICATION NOTICE !!!!

I, Prince Maurice A1 Jesh-Morlee Johnson-Bey Being duly Affirmed,
standing squarely, declare, and Proclaim, upon Divine Law; Nature's
Laws; Universal Law, Moorish Birthrights; International Law; and
Constitutional Laws; Declare and say:
I, Being previously identified by the Union States Society
of North America U.S.A Under the Colorable, War-ship Name,
MAURICE MORLEE JOHNSON do hereby refute the Fraud; make Public :and
Publish my Corrected National Name; Declare and affirm my true
'Proper person status'; and reclaim my Rightful social and Cultural
life of the State; In accord with my Moorish Nation Of Northwest
Amexem/North America-Acknowledging my Birthrights. Having Lawfully
and Legally Obtained And Proclaimed My Moorish NATIONALITY and
BIRTHRIGHT 'Name and Title'; in harmony with, in association with,
and in Accord with divine Law, the Customs; and Laws ,Rules and
Usages of The Moorish Divine and National Movement; being
Aboriginal and Indigenous,and bound to the North American
Continent by Heritage, by primogeniture; by Birthright; by Natural
birth; By FreeHold; and by Inhertance. Declared For the Public
Record, I am Returning the European Cognomen and fictitious
minomer back to the Colonial Possessors of its Pedigree. I am
Now rightfully Declaring, Publishing, and Proclaiming my own
Free National Name; Affirming my actual, Rightful, and Civil

In Full Life

Status; Conjoined to My Moorish American

Consanguine Pedigree and National Honor Let it be Declared, Known
Published and Resolved that: I AM Prince:Maurice A1 Jesh-Morlee.- - .
Johnson-Bey 1, 5 IN Propria Persona Sui Juris' (being in my own proper
person), by Birthright: an Inheritance WITHOUT THE FOREIGN,IMPOSED
COLOR-OF-LAW,OR ASSUMED DUE PROCESS OF THE UNION STATES SOCIETY;
Pursuant to,But not Limited to;
1. Free MOORISH-AMERICAN ZODIAC CONSTITUTION:
(Zodiac Constitution and Birthrights of the Moorish Americans)
Ali,Bey,El,Dey and Al).Article two (2),Paragraph two (2).
2.
UNITED STATES REPUBLIC:DEPARTMENT OF JUSTICE:
Moorish American Credential: AA 222141-TRUTH A-l
3.

UNITED STATES SUPREME COURT: SUPREME LAW-Acts of State

4.

RESOLUTION NUMBER SEVENTY-FIVE (75): DATED April 17, 1933

A.D (Moorish-American Society Of Philadelphia And the Use Of
Their names).
5.

UNITED STATES CONSTITUTION: Article,III (3), § two (2),

Amendment V (5) (Liberty Clause) and amendment IX (9)
(Reservation of the Rights of the people).
6.

UNIVERSAL DECLARATION OF HUMAN RIGHT-UNITED NATIONS-

HUMAN RIGHTS [Article Fifteen (15)].
7.

RIGHT OF INDIGENOUS PEOPLES-UNITED NATIONS; GENERAL ASSEMBLY

Part 1, Article 4.
WHEREFORE I,PRINCE Maurice AL Jesh-Morlee Johnson-Bey being
Part and Parcel
and Inheritance

Named herein, and by Birthright, Primogeniture
Make a LawFul and legal Entry Of Affidavit and

public Notification of Nationality proclaimation; Name correction
Claim; Declaration,Affirmation,and Application;Herewith PUBLISHED

For the public record.and Notification of Nationality Proclamation;
Name Correction Claim; Declaration, Affirmation, and Application
Herewith Published for record.ect:

I Am

A.M ■

Witness:
Witness,:

A free and Natural Moorish American National

In Propria Persona

JSui Juris,' Northwest Amexem/Northwest Africa/North America

Place of seal: =

Authorized by the Act of
July 7 1355 to Administer Oaths

q'JO 2£2e
Case Manager
USP Thomson, Illinois

»' . —

'Maurice Morlee Johnson-Bey
of
THE MOORISH AMERICAN NATION
PETITIONER
V
UNITED STATES OF AMERICAN
UNITED STATES CONGRESS
UNITED STATES SUPREME COURT
RESPONDENT

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

AVERNMENT OF JURISDICTION

Now come The petitioner IN THE UNITED-' STATES- SUPREME COURT
"IN PROPRIA PERSON

SUI JURIS,AND WITH THE CONSTITUTION DE jure to

move This avernment of Jurisdiction To The status Of

BEY Tribes OF

THE MOORISH AMERICAN NATION. HEREBY CHALLENGE THE DEFENDANT
( UNITED STATES, THE UNITED STATES CONGRESS, THE UNITED STATES SUPREME?
COURTS OF INTERNATIONAL TRADE ET AL). TO BE RECOGNIZED AS A PURE AND
CLEAN TRIBE OF THE MOORISH AMERICAN NATION. IS THE ORDER OF TODAY'S
JUDICAL BUSINESS: THE SUPREME LAWS OF THE UNITED STATES AND ALL OTHER
FREE NATIONAL GOVERNMENTS JUDICIALLY UPHOLD. THERE CAN BE NO LEGAL
PROCEEDING WITHOUT THE RIGHT ORDER ESTABLISHMENT OF PROPER STATUS AND
APPOSITE JURISDICTION, THESE TWO PILLARS OF LAW MUST BE IN PLACE AND
HAVE PRECEDENCE BEFORE THE THE ADJUDICATION OF ALL FORMAL MATTERS
OF LAWFUL SUBSTANCE CAN BE ADDRESSED.

Cited SUPREME COURT Decision:

•AMISTAD MUTINY OF 1841
•Dred scott decision of 1856-1857

This Historical Reunion Of A MOORISH family Reuniting with-IT'S Nation
Is The Answering Of One Family,Bearing Their One free National Name
Of Moorish American and not to be misconstrued as a Religious Organization
subjected to the UNITED STATES The above cited SUPREME CO.URT Decision
combined with Resolves as "ELION GONZALES OF CUBA VS THE.LAWS AND CITIZ EN
OF THE UNITED STATES". We are the lawful gnosis personifying the
Supreme ISSUES OF Status and Relevant to The Immediate matters of NATIONALITY
AND MANUMISSIONS of the INDIGENOUS MOORISH TRIBE'S TO the CONTINENTAL
BREAST OF NORTH AMERICAN.
HERE NOW THE GREATEST BOUNDS OF JURISDICTION EMPOWERED
TO THE WISDOM IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA
is hereby CHALLENGED to render In written "PERSONAM," Its constitutional
OF THE
JURISDICTION to govern The Lost-found INDIGENOUS TRIBES
MOORISH AMERICAN NATION, An Estimated sixty five million Descendants.
of THE UNITED
The supreme court In FULL AUTHORITY TO EXERCISE the power
Now
STATES CONSTITUTION, join with the Entire EMBODIment of CONGRESS.
Have the Burden of Proof; To prove Any Jurisdiction To Justly Govern
The Pure And Clean Tribes; OF the MOORISH AMERICAN NATION, Present In
ki
Their Proper person Now before You. First Amendment; Nor To Be Confuse
With These "person" Denationalized In The UNITED STATES FOURTEENTH
AMENDMENT UNDER THE EX POST FACTO SLAVE LABEL Of ( negro black color
or african american people's.
When No jurisdiction over The moorish american present car
be claimed and proven by The Challenged UNITED STATES SOVERIGNTY OR
THE COPORATE UNITED STATES OF AMERICA WHETHER SPIRITUALLY,ANCESTRALLY.
INDIGENOUSLY

POLITITCALLY OR LEGALLY; Then both the lion and the lamb

they
are to lay's Togather and Neither, will be harmed In this New era
are to let peace be still in THE NORTH AMERICAN CONTINENT AND THE WORLD
NOW AND FOREVER.

’<5

.

DECLARATION

I, Maurice A1 jesh-morlee Johnson-Bey, Herein Declare under
Penalty of Perjury that I am the Petitioner "Sui Juris"
"In Propria Persona" In the Above stated Matter and the foregoi
ng
Is true and Correct Base upon Information (Herein and above) and
Belief and Not Willfully False. I Make This Declaration Pursuant,
to 28 U.S.C. § 1746 This Day

J$

°f AUQus/-

Mml/q-

.2020

/Idifli&tO'dZevi

'Maurice A1 j' nAMdrlee JohnsonBey
Reg: 291430^Thomson U.S . P
Po box 1002
Thomson IL 61285
CERTIFICATE OF SERVICES

I, Hereby certify that on this day

/5

2020

A True and Correct Copy For The Foregoing was Mail to the Clerk
Of The United State Supreme Court. For Uploading In ECF/CM
system.and That A Electronic Notification Shall be sent all Parties:
K.Mckenzie
United State
210 Parkway
Oklahoma city,okla 73102

The State of Oklahoma
The. .United state court of appeal 10th CIR
Oklahoma county. 320 Robert s Kerr 73'02
The United State Congress.

r~tmsn2>4004)
USP Thomson, Illinois

HISTORICAL FACT AND CITIED LAWS

The treaties Of peace and friendship (1787,1836)
The sundry Free Moor act of 1790:
The 1781 Organic united states Constitution
The moorish Financiers Act (Union state army 1861-1863
The 1854 roman Catholic magna charta;
The Knight of Columbus Codes
the Ku KIux Klan oath
the United Nation Charta. Article 55 (c)
The Right Of Indigenous People:Part I Article 1,2,3,4,5, Part II
article 6:
The United states Supreme Courts act of States
The Foreign Sovereign Immunities Act 28 U.S.C. 1601 seq
The International road Traffic Day-19 September 1949
The world court Decision, The Hague,Netherland-day 21 January
1958 ad=1378 M.C.
The General assembly resolution 217 III of 10 December 1948 A.D
The Executive Order 13107, United State Republic
The United Nation,Declaration of the Right of Child
The Constitution Covenant of 1774-1781 A.D=120 M.C.,as Lawfully
adopted for the United States Republic.
The Free White Person Naturalization Act As Amendment by Act July
14 1870, Has Meaning Naturally Given to It When First Use In States
103.c.3

MOORISH AMERICAN NATIONAL
SUPPORTING CREDINTIAL AND LAWS

1. Zodioc Constitution and BrightRight Of The Moorish American

2. ALi,Bey,Dey,) article (2) paragraph (2)

3. Resolution Number Seventy-Five (75):Dated April 17, 1933. A.D.
(Moorish-American society of Philadelphia and the Use of Their
Name)
The United States Constitution: Article III (3) § (2)

Amendment V (5) (liberty Clause) and Amendment I § 9

Department of justice: Moorish american Credintial AA 222141-Truth
A-l Copy Right Certificate

The Universal Declaration of ...human Right Article 15j,i

The Right of Indigenous People- United Nations; General Assembly
Part 1, Article 4.

The Moorish Nationial Card

•*

DECLARATION

15 Maurice A1 jesh-morlee Johnson-Bey, Herein Declare under ■'»;
Penalty of Perjury that I am the Petitioner "Sui Juris"
In Propria Persona

In the Above stated Matter and the foregoing

Is true and Correct Base upon Information (Herein and above) and
Belief and Not Willfully False. I Make This Declaration Pursuant
to 28 U.S.C. § 1746 This Day

/&

of

2020

Maurice A1 j^TTA Mbrlee JohnsonBey
Reg: 291430^4
Thomson U.S.P
Po box 1002
Thomson IL 61285
CERTIFICATE OF SERVICES

I, Hereby certify that on this day

/&

of A'UQ&tS^

2020

A True and Correct Copy For The Foregoing was Mail to the Clerk
Of The United State,Supreme Court. For Uploading In ECF/CM
system.and That A Electronic Notification Shall be sent all Parties:
-Assist^At-t
General
• * * l ^ i—-•.. . *..• . i £-• t

The State of Oklahoma
,t:x
The United state SolIcitdrsGeneralyDbOCJ.d
United State
Rqoin -5616 , , pehris y 1 vAhia«aveWas BbJ20 5 3 0i 2 ’*
210 Parkway
The United State Congress.
Oklahoma city,okla 73102

AuthorizedbytheActof
UY 7, 1955 to Administer Oaths
( ^^8^^004)
Qrre

Case Manager
USP Thomson, Illinois

2x6-2^

i

